TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Additional Actions and Data Are Needed
                     to Further Analyze the Size and Skills
                          of the Acquisition Workforce



                                           July 26, 2011

                              Reference Number: 2011-10-072




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


ADDITIONAL ACTIONS AND DATA ARE                      1) identifying its acquisition workforce,
NEEDED TO FURTHER ANALYZE THE                        2) determining the number of acquisition
SIZE AND SKILLS OF THE ACQUISITION                   workforce personnel it needs to accomplish its
WORKFORCE                                            mission, and 3) determining the skills its
                                                     employees have compared to the skills required.
                                                     Prior audits have raised concerns over the
Highlights                                           adequacy of the acquisition workforce. For
                                                     example, TIGTA previously reported that
Final Report issued on July 26, 2011                 contracting officer’s technical representatives
                                                     were not performing the day-to-day oversight or
Highlights of Reference Number: 2011-10-072          the physical receipt and acceptance of contract
to the Internal Revenue Service Deputy               deliverables for the procurements to which they
Commissioner for Operations Support and the          were assigned. In addition, 22 contracting
Deputy Commissioner for Services and                 officer’s technical representatives assigned to
Enforcement.                                         40 procurements with $31.8 million in labor hour
                                                     expenses did not have sufficient documentation
IMPACT ON TAXPAYERS                                  to support the approval of the billed labor
Successfully acquiring goods and services and        expenses.
executing and monitoring procurements to help        If the IRS does not take action to improve its
the Internal Revenue Service (IRS) meet its          acquisition workforce planning, it: 1) may not be
mission requires a highly skilled acquisition        able to easily identify its acquisition workforce to
workforce. However, the IRS cannot easily            know whether it has enough people with the
identify its acquisition workforce and ensure it     right skills to perform acquisition duties, 2) may
has a sufficient workforce with the skills needed    be understaffed to handle the anticipated
to accomplish its mission. If the IRS does not       acquisition workload, and 3) may not have all
take action to improve acquisition workforce         the prerequisite skills to oversee procurements.
planning, it may not have sufficient, qualified
acquisition resources where needed, an issue         WHAT TIGTA RECOMMENDED
that TIGTA reported previously. Consequently,
the IRS is at risk of wasting scarce resources by    TIGTA recommended that the IRS develop and
paying more for procurements than necessary          document an IRS-wide approach to ensure it
and/or not receiving adequate goods and              can identify, track, and monitor the adequacy of
services to meet its mission.                        its acquisition workforce.
                                                     IRS officials agreed with the recommendation.
WHY TIGTA DID THE AUDIT
                                                     The Office of Procurement plans to meet with
This audit is included in our Fiscal Year 2011       the Department of the Treasury’s Senior
Annual Audit Plan and addresses the major            Procurement Executive to determine its plans to
management challenge of Human Capital. The           assess and analyze the acquisition workforce at
overall objective of this review was to assess the   the Department of the Treasury level and to
IRS’s efforts to determine the size, skills, and     determine whether the definition of the
competencies of its acquisition workforce.           acquisition workforce can be refined at the
                                                     bureau level. The Office of Procurement also
WHAT TIGTA FOUND                                     plans to form a working group to: 1) assess the
As of February 11, 2011, the Office of               feasibility of implementing an IRS-wide
Procurement was responsible for administering        approach to ensure the adequacy of the
891 procurements valued at approximately             acquisition workforce is effectively monitored
$31.5 billion over the life of the procurements.     and 2) draft a policy and develop a plan for
However, like other Government agencies, the         regular monitoring.
IRS has struggled to accomplish the basic tasks
in acquisition workforce planning, including:
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             July 26, 2011


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Additional Actions and Data Are Needed to
                             Further Analyze the Size and Skills of the Acquisition Workforce
                             (Audit # 201010012)

 This report presents the results of our review to assess the Internal Revenue Service’s efforts to
 determine the size, skills, and competencies of its acquisition workforce. This review is included
 in our Fiscal Year 2011 Annual Audit Plan and addresses the major management challenge of
 Human Capital.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendation. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.
                          Additional Actions and Data Are Needed to Further Analyze
                                the Size and Skills of the Acquisition Workforce




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Overall Acquisition Workforce Planning Activities
          Need Improvement........................................................................................ Page 5
                    Recommendation 1:........................................................ Page 12


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Duties of Acquisition Workforce Personnel ........................ Page 18
          Appendix V – Management’s Response to the Draft Report ....................... Page 19
       Additional Actions and Data Are Needed to Further Analyze
             the Size and Skills of the Acquisition Workforce




                    Abbreviations

COTR          Contracting Officer’s Technical Representative
GS            General Schedule
IRS           Internal Revenue Service
                       Additional Actions and Data Are Needed to Further Analyze
                             the Size and Skills of the Acquisition Workforce




                                              Background

Government agencies should ensure that the Federal Government is receiving the best value for
its procurements and that contractors are meeting the procurements’ terms and conditions. If
procurements are not awarded and monitored in accordance with contract terms, the Government
is at risk of overpaying and wasting taxpayer funds. To protect the Government’s interest,
several types of acquisition personnel are needed to execute and monitor contracts over the life
of a contract. Therefore, ensuring a sufficient, well-trained acquisition staff is an essential
element to acquiring goods and services.
Several risk factors that have reached a critical stage
heighten the need for a strong acquisition workforce.              The acquisition workforce
For example, since Calendar Year 2000, procurement                    is at risk of losing a
                                                                     significant number of
spending within the Federal Government has increased                    personnel due to
by 155 percent to almost $532 billion, while the growth                    retirement.
in the acquisition workforce has not kept up.1 This
increased workload leaves less time for effective
planning and contract administration which can lead to diminished acquisition outcomes. In
addition, Government-wide, 31 percent of contracting series personnel2 will be eligible for
retirement by Fiscal Year 2014, and 51 percent will be eligible for retirement by
Fiscal Year 2019. Given the large amount of taxpayer funds being spent and the anticipated
level of retirements in the coming years, it is critical that the Federal Government attract and
retain talented individuals for the acquisition workforce to ensure taxpayer dollars are spent
wisely.
In March 2009, the President identified acquisition workforce development as a pillar for
strengthened agency acquisition practices and improved Government performance. Also in
Calendar Year 2009, the Office of Management and Budget developed guidance for Federal
agencies with regard to the acquisition workforce. These include:
    •    Requiring Federal agencies to provide to the Office of Federal Procurement Policy copies
         of their acquisition workforce human capital succession plans focusing on the
         recruitment, retention, and development of contracting officers.3




1
  “If Spending Is Swift, Oversight May Suffer,” The Washington Post, February 9, 2009.
2
  Contract specialists and contracting officers are both part of the General Schedule (GS) contracting job series
GS-1102.
3
  Acquisition Workforce Human Capital Succession Plans, dated January 7, 2009.
                                                                                                               Page 1
                      Additional Actions and Data Are Needed to Further Analyze
                            the Size and Skills of the Acquisition Workforce



    •   Recommending that agencies analyze whether the current size, skill level, and
        organizational structure of their acquisition workforce are sufficient to achieve a
        high level of performance.4
    •   Developing an Acquisition Workforce Development Strategic Plan for Fiscal
        Years 2010–2014 that provides a structured approach to improve both the capacity and
        capability of the civilian acquisition workforce. Each civilian agency covered by the
        Chief Financial Officers Act5 must develop an annual Acquisition Human Capital Plan6
        that identifies specific strategies and goals for increasing both the capacity and capability
        of the workforce for the period ending in Fiscal Year 2014.7
In addition, the need for a highly qualified acquisition staff was emphasized with the American
Recovery and Reinvestment Act of 20098 guidance issued in February 2009.
The mission of the Internal Revenue Service (IRS) is to provide America’s taxpayers with
top-quality service by helping them understand and meet their tax responsibilities and by
applying the tax law with integrity and fairness to all. To achieve this mission, the IRS uses a
variety of approaches and tools, including procurements to acquire goods and services needed to
fulfill or support the mission. Successfully acquiring goods and services and executing and
monitoring procurements to help the IRS meet its
mission requires a highly skilled acquisition workforce.         Over the last several fiscal
                                                                             years, the number of
The IRS spends approximately $2 billion a year                         procurements and modifications
acquiring goods and services through its Office of                      has risen at the same time that
Procurement. As of February 11, 2011, the Office of                     Office of Procurement staffing
Procurement was responsible for administering                                  began to decline.
891 procurements with a value of approximately
$31.5 billion over the life of the procurements. Figure 1
shows that the total dollars expended in support of
acquisitions by the IRS has increased, while the number
of employees in the Contracting Job Series (General
Schedule (GS)-1102)9 has decreased over the past
3 fiscal years.


4
  Improving Government Acquisitions, dated July 29, 2009.
5
  Pub. L. No. 101-576, 104 Stat. 2838 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and
42 U.S.C.).
6
  While this plan was developed by the Department of the Treasury, close to 95 percent of the Department of the
Treasury’s entire budget relates to the Internal Revenue Service.
7
  Acquisition Workforce Development Strategic Plan for Civilian Agencies – Fiscal Years 2010–2014, dated
October 27, 2009.
8
  Pub. L. No. 111-5, 123 Stat. 115 (2009).
9
  Within the IRS, the Office of Procurement is the only office where job series GS-1102 positions are located.
                                                                                                           Page 2
                      Additional Actions and Data Are Needed to Further Analyze
                            the Size and Skills of the Acquisition Workforce



                             Figure 1: IRS Procurement Dollars Expended
                           and Number of Office of Procurement Contracting
                                  Job Series (GS-1102) Employees10
                               Total Procurement                       Number of GS-1102
           Fiscal Year         Dollars Expended                           Employees
               2008                 $1.8 billion                                29811
               2009                 $1.8 billion                                28512
               2010                 $2.0 billion                                27513
         Source: Office of Procurement and the Human Resource Reporting Center.

In addition, the Department of the Treasury’s Acquisition Human Capital Plan for
Fiscal Years 2011–2014 indicates there is a potential need to increase the COTR workforce.
Further, beginning in Fiscal Year 2011, the Department of the Treasury began to transfer at least
30 procurement personnel to the IRS, and the IRS will take responsibility for approximately
$500 million worth of the Department of the Treasury’s acquisitions.
The IRS acquisition workforce consists of all participants in the acquisition process, not just
those reflected in Figure 1, including program managers, contract specialists, contracting
officers, and COTRs. Contract specialists and contracting officers work in the Office of
Procurement, while program managers and COTRs work in both the Office of Procurement and
program offices throughout the IRS. See Appendix IV for a summary of the duties of acquisition
workforce personnel.
This audit was conducted while changes were being made to address acquisition workforce
issues, including the development of a competency model. Any changes that have occurred
since we concluded our interviews in February 2011 are not reflected in this report. As a result,
this report may not reflect the current status of acquisition workforce issues.
This review was performed at the Office of Procurement in Oxon Hill, Maryland, and at the
Modernization and Information Technology Services organization offices in
New Carrollton, Maryland, during the period April 2010 through February 2011. We also
conducted telephone interviews with applicable employees in the Wage and Investment, Large
Business and International (formally known as Large and Mid-Size Business), and Small
Business/Self-Employed Divisions, as well as the Modernization and Information Technology
Services organization. In addition, we corresponded with employees from the Tax Exempt and


10
   Other acquisition personnel positions, including contracting officer’s technical representatives (COTR), are not
always located in the Office of Procurement.
11
   As of September 27, 2008.
12
   As of September 26, 2009.
13
   As of September 25, 2010.
                                                                                                              Page 3
                 Additional Actions and Data Are Needed to Further Analyze
                       the Size and Skills of the Acquisition Workforce



Government Entities Division, IRS Human Capital Office, and Office of Program Evaluation and
Risk Analysis. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                     Page 4
                     Additional Actions and Data Are Needed to Further Analyze
                           the Size and Skills of the Acquisition Workforce




                                     Results of Review

Overall Acquisition Workforce Planning Activities Need Improvement
Workforce planning ensures that the right people with the right skills are in the right place at the
right time. To assist with acquisition workforce planning, the Office of Management and Budget
recommends that agencies analyze whether the current size, skill level, and organizational
structure of their acquisition workforce is sufficient to achieve a high performance level. The
IRS has taken some actions to determine the appropriate size of its acquisition workforce and
whether current employees have the required skills necessary for their jobs. However, like other
Government agencies, it has struggled to accomplish the basic tasks in acquisition workforce
planning, including:
     •   Identifying the overall acquisition workforce.
     •   Determining how many acquisition workforce personnel it needs to accomplish
         its mission.
     •   Determining acquisition workforce personnel skills gaps.
If the IRS does not take action to improve its acquisition workforce planning, it: 1) may be
unable to easily identify its acquisition workforce to know whether it has enough people with the
right skills to perform acquisition duties, 2) may be understaffed to handle the anticipated
acquisition workload, and 3) may not have all the prerequisite skills to oversee acquisitions. As
a result, the IRS may waste scarce resources by paying more for acquisitions than necessary
and/or not receiving adequate goods and services to meet its mission.

Not all personnel involved in acquisition workforce activities can be readily
identified
The Office of Federal Procurement Policy14 identified a minimum set of functions that constitute
acquisition workforce positions within the Federal Government, including program managers,
contract specialists, contracting officers, and COTRs. In addition, the Office of Federal
Procurement Policy suggested that agencies consider including a broader range of acquisition
activities to use when defining their acquisition workforce. These activities could include
requirements definition, measurement of procurement performance, and technical and
management direction.


14
  Office of Federal Procurement Policy, Policy Letter 05-01, Developing and Managing the Acquisition Workforce,
dated April 15, 2005.
                                                                                                       Page 5
                     Additional Actions and Data Are Needed to Further Analyze
                           the Size and Skills of the Acquisition Workforce



Although the IRS Office of Procurement could easily identify its acquisition workforce, the
acquisition workforce personnel outside of the Office of Procurement15 was difficult to identify.
This is because the IRS does not maintain a master list of all acquisitions workforce personnel.
The Office of Procurement could not provide us with
information regarding the number of COTRs throughout                 Identification of the
the IRS. In addition, there was confusion among the               IRS acquisition workforce
operating divisions and the Modernization and                     caused a lot of confusion
Information Technology Services organization as to               among   the offices sampled.
what positions constituted the acquisition workforce in
the field. We had to contact these offices several times to obtain additional acquisition
workforce data. One operating division responded that it did not have an acquisition workforce.
However, an Office of Procurement official stated that all of the operating divisions have an
acquisition workforce. Although the remaining operating divisions and the Modernization and
Information Technology Services organization provided us with lists of their acquisition
workforce, they were not consistently defining or tracking their acquisition workforce and,
therefore, could not provide us with reliable numbers.
Neither personnel in the Office of Procurement nor the operating divisions could provide us with
the definition of the IRS’s acquisition workforce. However, Office of Procurement personnel
later commented that the IRS’s definition of the acquisition workforce (anyone in the job series
GS-1102, contracting officers [regardless of their job series], project/program managers, and
COTRs) is consistent with the Department of the Treasury’s definition. While the Office of
Procurement provided a definition of the acquisition workforce, it is clear that the IRS has not
effectively communicated the definition throughout the agency.
Defining and identifying the acquisition workforce is the first step to answering the
Administration’s concerns and addressing the Office of Management and Budget’s
recommendations. If the IRS cannot easily identify its acquisition workforce, it cannot know
whether it has enough people with the right skills to perform acquisition duties.

The number of acquisition personnel needed has not been determined
As noted previously, concerns have been expressed about the size of the Government-wide
acquisition workforce not keeping pace with the growth in Government-wide procurement
spending. We believe that this Government-wide concern may also be an issue within the IRS.
The Office of Procurement’s workload continues to increase without a significant increase in
personnel, and the Department of the Treasury has determined there may be a need for a
significant number of additional COTRs throughout the Department of the Treasury. In addition,

15
  Personnel performing acquisition duties change frequently and personnel are decentralized throughout the IRS.
Specifically, COTRs change frequently, as they have authority to work on procurements only when they have been
formally delegated by the contracting officer.
                                                                                                         Page 6
                      Additional Actions and Data Are Needed to Further Analyze
                            the Size and Skills of the Acquisition Workforce



we have seen indications in prior audits that the IRS may not always have the number of
acquisition personnel it needs to: 1) sufficiently monitor procurements to ensure contractors
were meeting the procurements’ terms and conditions,16 and 2) ensure payments were only made
to contractors who performed in accordance with contract terms and conditions.17 However, the
IRS does not currently have an objective method for determining an adequate size for the
acquisition workforce. While developing a method may be difficult, it is necessary to ensure the
IRS has sufficient, qualified staff to effectively oversee the approximately $2 billion it spends
each year on acquisitions.
A review of Office of Procurement staffing data and workload for Fiscal Years 2008 through
2010 indicates that while staffing has remained relatively stable, the related workload has
increased significantly. Figure 2 shows that the number of contracts increased from 7,444 to
8,263, an 11 percent increase from Fiscal Years 2008 to 2010, and the total dollars obligated for
these base contracts increased by $141 million during this time period. Even more striking is the
fact that contract modifications increased from $653 million to $936 million, an almost
43 percent increase from Fiscal Years 2008 to 2010, and the total dollars obligated for these
contract modifications increased by $283 million during this time period.
                              Figure 2: IRS Procurement Dollars Expended
                                  and Number of GS-1102 Employees18

              Number of       Number
     Fiscal    GS-1102           of          Contract Dollars        Number of    Modification Dollars
     Year     Employees       Contracts        Obligated            Modifications     Obligated
     2008         298           7,444          $639 million              8,756              $653 million
     2009         285           8,301          $710 million             10,677              $725 million
     2010         275           8,263          $780 million             12,340              $936 million
 Source: Office of Procurement and the Human Resource Reporting Center.

In addition to an increasing workload within the Office of Procurement, the COTR workforce
faces staffing challenges. The Department of the Treasury’s Acquisition Human Capital Plan for
Fiscal Years 2011-2014 indicates there is a need to explore COTR staffing requirements.
Specifically, the plan indicates a potential need to increase the Department of the Treasury’s
COTR workforce. The projection model used as part of this plan projects a need for
3,373 COTRs, a 78 percent increase over the current workforce of 1,900 COTRs.


16
   Procurement Audit Results Indicate Problems Continue to Exist After Corrective Actions Were Implemented
(Reference Number 2010-10-088, dated September 14, 2010).
17
   Controls Over the Contracting Officer’s Technical Representatives Workforce Were Ineffective, Resulting in
Significant Risks to the Government (Reference Number 2009-10-139, dated September 30, 2009).
18
   All dollar values in this figure were rounded up.
                                                                                                           Page 7
                      Additional Actions and Data Are Needed to Further Analyze
                            the Size and Skills of the Acquisition Workforce



Our prior audits have also shown indications that the acquisition workforce may not be staffed to
handle the volume of procurement actions at all times during the fiscal year. For example, the
Office of Procurement used overtime to complete its required yearend procurement actions,
when the dollar value of commitments increased 671 percent in several fiscal years. Our review
of yearend spending actions identified deficiencies in 15 percent of the procurement actions we
reviewed, including 4 potential violations of appropriations regulations.19 We also reported that
COTRs were not performing the day-to-day contract oversight or the actual physical receipt and
acceptance of contract deliverables for the procurements to which they were assigned. In
addition, personnel who had not received training were performing contract administration
duties, and 22 COTRs assigned to 40 contracts with $31.8 million in labor hour expenses did not
have sufficient documentation to support their approval of contractor’s billed labor charges.20
One possible reason that these issues have occurred could be due to understaffing.
While the Department of the Treasury’s Acquisition
Human Capital Plan and our audits indicate that there              Similar to other Federal
may be a need for more acquisition personnel across the           agencies, the IRS has not
IRS, recent efforts to improve workforce planning have              developed a model for
                                                                determining whether the size
not included acquisition occupations. In Calendar
                                                                 of its acquisition workforce
Year 2008, the IRS Commissioner established the                           is adequate.
Workforce of Tomorrow Task Force with a goal of
making the IRS the best place to work in Government
and ensuring that in 5 years the IRS has adequate
leadership and staffing for the next 15 years. The Task
Force developed recommendations that included
implementing an Attrition Model to project retirements
and resignations by occupation and post of duty, and
implementing an IRS-wide High Level Workload Model
and a Workforce Planning Tool to project future hiring
needs. However, the Workforce of Tomorrow Task
Force models were not designed with Office of Procurement’s mission critical occupations21 in
mind. Specifically, the Task Force issued its final report in August 2009, but the Office of
Procurement’s GS-1102 contract specialist position was not added to the IRS’s mission critical
list until September 2009. In addition, the Office of Procurement was not aware of the Task
Force’s recommendation to develop an IRS-wide Workforce Planning tool.



19
   The Growing Number of Requests for Procurement Actions at Yearend Increases the Risk of Inefficient and
Ineffective Spending (Reference Number 2007-10-181, dated September 24, 2007).
20
   Controls Over the Contracting Officer’s Technical Representatives Workforce Were Ineffective, Resulting in
Significant Risks to the Government (Reference Number 2009-10-139, dated September 30, 2009).
21
   Mission critical occupations are those few occupations that comprise the unique core competencies of the IRS
and/or have the greatest direct impact on the agency’s ability to meet its mission.
                                                                                                           Page 8
                   Additional Actions and Data Are Needed to Further Analyze
                         the Size and Skills of the Acquisition Workforce



Because an IRS-wide model for projecting future workload and workforce requirements was not
available, we asked the Office of Procurement whether it had any models for determining
acquisition workforce needs. For example, any model that would show that for a specific dollar
amount or number of actions the IRS should have “xx” number of acquisition personnel. An
Office of Procurement official stated that it did not have any sort of model for determining
acquisition workforce needs and developing one would not be an easy task because not all
procurements are alike. For example, a simple procurement may require minimal oversight
while a complex procurement may require a team of individuals with different skill sets to
adequately oversee the procurement. We researched other Federal agencies to determine if
models were available within the Federal community that may be of use to the IRS. However,
our research did not uncover any models being used by other Federal agencies to determine the
appropriate size of the acquisition workforce.
While developing an objective method for
determining the minimum number of personnel                    Without knowing the total
necessary based upon anticipated workload may be            acquisition workforce needed,
                                                             the IRS may be understaffed.
difficult, we believe the time is right to begin
gathering data to analyze whether the IRS has
sufficient acquisition staffing. Effective acquisition workforce planning requires determining the
workload and personnel levels of the acquisition workforce on a regular basis to enable the IRS
to perform acquisition-related duties in a timely and cost-effective manner. Without effective
acquisition workforce planning, the IRS will be at risk of not having a sufficient acquisition
workforce to support its needs. If the number of acquisition personnel needed is not known, the
IRS may be understaffed. Understaffing could lead to a lack of oversight of contractors, which
may result in cost overruns or the IRS not receiving the contracted goods or services it pays for.
Management Actions: The Office of Procurement has conducted two studies to analyze its
workforce and workloads. Although this is a good first step, the studies were not completed and
all recommendations have not been implemented.
   •   In late Calendar Year 2007, the Workforce Management and Support Services office
       entered into a contract to conduct an Acquisition Workforce Analysis. This analysis was
       initiated by the Office of Procurement because an agency-wide workforce planning effort
       undertaken by the IRS Human Capital Office. Details of this analysis indicated that
       based on the existing workforce demographics, over the next 15 years, the Office of
       Procurement could lose an estimated 56 to 64 percent of its contracting officers. The
       workforce analysis also revealed that senior Office of Procurement management
       identified areas of weakness as training and development, succession planning,
       knowledge management, internal communication, talent recruitment, and an inadequate
       Human Resource Information System that did not support workforce planning. This
       presents the IRS with a major challenge and, if not addressed, could jeopardize the


                                                                                           Page 9
                      Additional Actions and Data Are Needed to Further Analyze
                            the Size and Skills of the Acquisition Workforce



         IRS’s ability to recruit and retain contracting officials and provide continuity of
         leadership.
         The Workforce Analysis study resulted in 15 recommendations related to the internal and
         external hiring process, creating a talent inventory, assessing workforce and workload
         requirements, and developing competency models for the GS-110122 and 1102 job
         series. As of August 2010, the Office of Procurement had fully completed 4 (27 percent)
         of the 15 recommendations. Specifically, the Office of Procurement developed a charter
         and a strategy map to assist with workforce planning efforts. The Office of Procurement
         also developed competency models for specific acquisition positions and plans to conduct
         an annual review of competencies. The other 11 recommendations either are in progress
         or were put on hold. Specifically, the Office of Procurement has not addressed the
         recommendation to maintain a talent inventory to capture and transfer knowledge. It is
         also working on the recommendation to retain talent and was in the process of obtaining
         approval to issue a survey to obtain applicable data. The Office of Procurement has not
         made as much progress as it would have liked relative to these recommendations because
         of staffing shortages.
     •   In Fiscal Year 2010, the Office of Procurement entered into a contract to conduct an
         8-week workload analysis of its Office of Information Technology Acquisition.23 This
         analysis was conducted to meet the challenges of attrition, growth, and management
         changes by assessing the current and future workloads of the Office of Information
         Technology Acquisition. The workload analysis assessed the current workload for each
         Office of Information Technology Acquisition branch to ensure proper staffing levels are
         met now and in the future, and that the workload for each branch aligns with the assigned
         workforce. This project was scheduled to be conducted in two phases. A report was
         issued in March 2010 at the conclusion of the first phase, with recommendations and a
         transition approach for short-term workload distribution and efficiency gains. In
         response, the Office of Information Technology Acquisition branch standardized a single
         point of entry for all new acquisitions. Phase two, which was not conducted for
         budgetary reasons, was intended to build on the work products from phase one and result
         in more detailed and encompassing recommendations.




22
 The GS-1101 job series consists of COTRs.
23
 The Office of Information Technology Acquisition is responsible for planning, negotiating, executing, and
managing the procurement of information technology products and services.
                                                                                                        Page 10
                     Additional Actions and Data Are Needed to Further Analyze
                           the Size and Skills of the Acquisition Workforce




Acquisition workforce skills gaps need to be identified and addressed
In addition to not determining the appropriate size of the acquisition workforce, the IRS has not
taken action to evaluate the effectiveness of efforts to close employee skills gaps for mission
critical members of its acquisition workforce. Further, no comprehensive analysis has been
conducted of employees’ training histories to identify skills gaps. Federal Government agencies
are required by Office of Personnel Management standards to periodically identify gaps between
competencies needed and possessed by employees in mission critical occupations and take
actions as needed to close those gaps.
The acquisition workforce study conducted in Fiscal Year 2010 identified skills gaps within the
Office of Procurement’s Office of Information Technology Acquisitions and, as a result,
appropriate training was provided to affected employees.
However, the remainder of the IRS acquisition workforce
                                                            IRS acquisition employees’
relies on the results of the Acquisition Workforce              skills gaps have not
Competencies Survey, which is administered by the                 been identified.
Federal Acquisition Institute and completed annually by
all Federal agencies, to identify skills gaps. This survey
is voluntary, anonymous, and does not provide agency-specific results. Instead, it provides a
consolidated analysis of all Federal agency responses.
In addition, a prior audit report showed that COTRs were not adequately trained to ensure
successful contract administration, which contributed to a fraud system not being delivered as
scheduled.24 We estimated the IRS failed to stop about $894 million in fraud due to this system
not being delivered as planned.25 Without determining whether its employees may have skills
gaps in its acquisition workforce, the IRS may not have all the prerequisite skills to oversee
procurements, which could lead to the IRS paying more for procurements than necessary and/or
not receiving adequate goods and services to meet its mission.
Management Actions: In February 2009, we reported26 that the IRS lacked comprehensive,
agency-wide information on mission critical employee skills needed to effectively assess its
workforce needs. The IRS agreed to implement a process to collect, compile, and analyze skills
data across the IRS. However, implementation of the IRS’s corrective actions has been delayed.
Until the IRS can identify and address skills gaps of acquisition workforce employees, it is at
increased risk that their skills will not be sufficient to adequately perform their duties.
Consequently, the Office of Procurement could consider using other information at its disposal,

24
   The Electronic Fraud Detection System Redesign Failure Resulted in Fraudulent Returns and Refunds Not Being
Identified (Reference Number 2006-20-108, dated August 9, 2006).
25
   An Estimated $1.6 Billion in Fraudulent Refunds Was Issued During the 2006 and 2007 Filing Seasons
(Reference Number 2008-10-172, dated September 22, 2008).
26
   Workforce Planning Efforts Are Hindered by a Lack of Comprehensive Information on Employee Skills Levels
(Reference Number 2009-10-041, dated February 24, 2009).
                                                                                                      Page 11
                     Additional Actions and Data Are Needed to Further Analyze
                           the Size and Skills of the Acquisition Workforce



including COTR certifications27 for key acquisition personnel, until an agency-wide system is in
place. Because the IRS is in the process of implementing corrective actions to identify and
correct skills gaps for all of its mission critical occupations, we are making no additional
recommendations at this time regarding skills gaps.
In addition, in August 2006, we reported28 that the IRS should ensure COTRs are adequately
trained. IRS management responded that all current COTRs were certified, having passed the
COTR training conducted by the Office of Procurement.

Recommendation
Recommendation 1: The Deputy Commissioner for Operations Support and the Deputy
Commissioner for Services and Enforcement should develop and document an IRS-wide
approach to ensure it effectively monitors the adequacy of its acquisition workforce. This
approach should include, but not be limited to, the following:
     •   Adopting and communicating an IRS-wide definition of the acquisition workforce that
         reflects the employees performing acquisition-related functions.
     •   Identifying employees performing acquisition-related functions on an ongoing basis.
     •   Assessing what data on current acquisition workforce efforts and employees, such as
         workload level, attrition data, and skills gaps, would help inform workforce planning
         efforts and then develop a strategy to collect that information. This strategy should
         include data on all IRS employees who perform acquisition-related functions.
     •   Collecting and analyzing data, discussed in the prior bullet, to determine the number and
         skills of acquisition workforce personnel needed for a particular workload. As not all
         procurements are uniform, this method may need to take into account the difference in
         complexity between procurement types.
     •   Developing and monitoring data, such as the quality of acquisition personnel’s work and
         the amount of overtime worked, to periodically ensure the IRS has the right number of
         acquisition workforce personnel with the skills needed to accurately and timely complete
         their workload.
         Management’s Response: The IRS agreed with this recommendation. The Office
         of Procurement will meet with the Department of the Treasury’s Senior Procurement

27
   The Office of Management and Budget issued a memorandum, The Federal Acquisition Certification for
Contracting Officer’s Technical Representatives, dated November 26, 2007, establishing a structured training
program for COTRs. All COTRs must be certified no later than 6 months from their date of appointment and must
maintain their skills currency through continuous learning.
28
   The Electronic Fraud Detection System Redesign Failure Resulted in Fraudulent Returns and Refunds Not Being
Identified (Reference Number 2006-20-108, dated August 9, 2006).
                                                                                                      Page 12
           Additional Actions and Data Are Needed to Further Analyze
                 the Size and Skills of the Acquisition Workforce



Executive to determine plans to assess and analyze the acquisition workforce at the
Department of the Treasury level, as well as to ascertain the achievability of refining the
definition of the acquisition workforce at the bureau level. The Office of Procurement
will form a working group, comprised of all stakeholders (including the Department of
the Treasury, IRS business units, and the Human Capital Office) to assess the feasibility
of implementing an IRS-wide approach to ensure the adequacy of the acquisition
workforce is effectively monitored. The Office of Procurement also plans to develop a
schedule to draft the policy and develop a plan for regular monitoring.




                                                                                    Page 13
                      Additional Actions and Data Are Needed to Further Analyze
                            the Size and Skills of the Acquisition Workforce



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the IRS’s efforts to determine the size, skills,
and competencies of its acquisition workforce. To accomplish this objective, we:
I.       Obtained background information related to the size of the IRS acquisition workforce and
         workload from Fiscal Years 2007 to 2010.
         A. Obtained information from the Office of Procurement, the four business operating
            divisions, and the Modernization and Information Technology Services organization
            on the size of the acquisition workforce from Fiscal Years 2007 to 2010.
         B. Obtained information from the Office of Procurement on the number of contracting
            officers by warrant level1 from Fiscal Years 2007 to 2010.
         C. Obtained information from the Office of Procurement detailing the number and dollar
            value of procurements from Fiscal Years 2007 to 2010.
         D. Identified prior Treasury Inspector General for Tax Administration reports showing
            indicators that the Office of Procurement needs additional staff.
II.      Assessed the capability of the IRS to identify and determine the size of its acquisition
         workforce.
         A. Obtained and reviewed Office of Management and Budget guidance/instructions to
            identify/assess the size of the acquisition workforce.
         B. Obtained criteria to identify acquisition workforce personnel by job series.
         C. Assessed whether any information developed by the IRS to determine the size and
            identity of its workforce was complete and accurate.
III.     Assessed any efforts by the IRS to analyze the adequacy of the size of the acquisition
         workforce.
         A. Interviewed Office of Procurement and IRS Human Capital Office officials to
            identify and obtain any studies conducted on the adequacy of the size of the
            IRS acquisition workforce.


1
 A contracting officer’s authority, and any limits to that authority, is stated in a Certificate of Appointment
(Standard Form 1402), commonly referred to as a warrant. There are three warrant levels that are based on the
dollar amount to which the contracting officer can obligate the IRS in a contract.
                                                                                                           Page 14
                  Additional Actions and Data Are Needed to Further Analyze
                        the Size and Skills of the Acquisition Workforce



       B. Reviewed any documents obtained in Step III.A. to determine whether
          recommendations were implemented.
       C. Determined the status of developing the workforce analysis tools recommended by
          the Workforce of Tomorrow Task Force.
       D. Determined how the IRS calculates the number of resources needed to carry out
          procurement duties.
       E. Ascertained the status of ongoing efforts to analyze the size of the IRS acquisition
          workforce.
IV.    Determined whether the IRS had assessed the skills and competencies needed by the
       acquisition workforce to efficiently and adequately accomplish their duties.
       A. Determined the status of the Office of Procurement’s initiative to identify skill sets
          and develop competency models for COTRs, contracting officers, and contract
          specialists.
       B. Identified and evaluated the status of any plans to assess skills and identify skills gaps
          within the acquisition workforce.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Office of Federal Procurement Policy’s
Policy Letter 05-01, Office of Management and Budget memorandums, Workforce of Tomorrow
Task Force actions, and documentation on studies conducted by the Office of Procurement on
the adequacy of the size of its acquisition workforce. We evaluated these controls by
interviewing IRS acquisition personnel and analyzing the acquisition-related data we obtained.




                                                                                            Page 15
                 Additional Actions and Data Are Needed to Further Analyze
                       the Size and Skills of the Acquisition Workforce



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
Cheryl J. Medina, Acting Audit Manager
Thomas F. Seidell, Audit Manager
Margaret A. Anketell, Lead Auditor
Marjorie Stephenson, Senior Auditor
Michael A. McGovern, Auditor




                                                                                  Page 16
                 Additional Actions and Data Are Needed to Further Analyze
                       the Size and Skills of the Acquisition Workforce



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of Commissioner – Attn: Chief of Staff C
Chief, Agency-Wide Shared Services OS:A
Chief Technology Officer OS:CTO
IRS Human Capital Officer OS:HC
Commissioner, Large Business and International Division SE:LB
Commissioner, Small Business/Self-Employed Division SE:S
Acting Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Chief, Agency-Wide Shared Services OS:A
   Chief Technology Officer OS:CTO
   IRS Human Capital Officer OS:HC
   Commissioner, Large Business and International Division SE:LB:CL
   Commissioner, Small Business/Self-Employed Division SE:S
   Director, Communications and Liaison, Tax Exempt and Government Entities Division
   SE:T:CL
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                  Page 17
                     Additional Actions and Data Are Needed to Further Analyze
                           the Size and Skills of the Acquisition Workforce



                                                                                             Appendix IV

           Duties of Acquisition Workforce Personnel

The acquisition workforce includes individuals who perform various acquisition-related
functions to support the accomplishment of the agency’s mission. At a minimum, the acquisition
workforce of an agency should include contract specialists, contracting officers, program
managers, and COTRs. Figure 1 provides acquisition-related duties for each position.
                      Figure 1: Acquisition Workforce Responsibilities

    Acquisition
     Position                                       Acquisition-Related Duties
Program Manager           •   Provides justification and certification that there is a legitimate Federal
                              Government need for goods or services, as well as sufficient funding
                              to pay for goods or services.
Contract Specialist       •   Reviews the completed requisition package before processing the
                              request.
Contracting Officer       •   Awards the contract and is the only person who has the authority to
                              enter into, modify, or terminate a contract on behalf of the Federal
                              Government.
                          •   Delegates authority to a COTR to administer the technical aspects of a
                              procurement after it is awarded.
                          •   Ensures the COTR receives and signs a copy of the appointment letter
                              that reflects the scope of his or her duties.
COTR                      •   Performs critical duties to protect the public’s interest in ensuring that
                              procurement deliverables meet the needs of the Federal Government.
                          •   Provides technical and program expertise necessary to develop and
                              manage the procurement.
                          •   Assists the contracting officer in issuing contract modifications and
                              entering into new contracts.
Source: Office of Procurement and prior Treasury Inspector General for Tax Administration audit reports.




                                                                                                       Page 18
     Additional Actions and Data Are Needed to Further Analyze
           the Size and Skills of the Acquisition Workforce



                                                     Appendix V

Management’s Response to the Draft Report




                                                           Page 19
Additional Actions and Data Are Needed to Further Analyze
      the Size and Skills of the Acquisition Workforce




                                                      Page 20
Additional Actions and Data Are Needed to Further Analyze
      the Size and Skills of the Acquisition Workforce




                                                      Page 21
Additional Actions and Data Are Needed to Further Analyze
      the Size and Skills of the Acquisition Workforce




                                                      Page 22
